Audit Report




OIG-14-013
SAFETY AND SOUNDNESS: Failed Bank Review of Mountain
National Bank
December 18, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 18, 2013


            OIG-14-013

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Mountain National Bank, Sevierville,
                                  Tennessee


            This memorandum presents the results of our review of the failure of Mountain National
            Bank located in Sevierville, Tennessee. The bank was chartered in 1998 and was
            wholly owned by Mountain National Bancshares, a one-bank holding company. The
            Office of the Comptroller of Currency (OCC) closed Mountain National Bank and
            appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on June 4,
            2013. As of March 31, 2013, Mountain National Bank had approximately $437.3
            million in total assets. As of September 30, 2013, FDIC estimated the loss to the
            Deposit Insurance Fund at $33.5 million.

            Because the estimated loss to the Deposit Insurance Fund is less than $150 million, as
            set forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Mountain National Bank that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth review of
            the loss. In performing our review, we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
            (3) interviewed an OCC problem bank specialist and the examiner-in-charge. We
            performed our fieldwork from June to September 2013.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform the
            audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our audit objectives. We believe that the evidence
            obtained provides a reasonable basis for our findings and conclusions based on our
            audit objectives.
OIG-14-013
Page 2

Causes of Mountain National Bank’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices; (2) the bank had incurred, or was likely to incur, losses that would deplete all
or substantially all of its capital, and there was no reasonable prospect for it to become
adequately capitalized without federal assistance; (3) the bank’s unsafe or unsound
practices or conditions would likely weaken its condition; and (4) the bank was critically
undercapitalized.

The primary cause of Mountain National Bank’s failure was its pursuit of an aggressive
growth strategy centered on commercial real estate (CRE) lending without appropriate
underwriting, risk management, and credit administration. From 2004 through 2013,
the bank maintained significant concentrations of CRE loans. At its peak in 2013, the
bank’s CRE concentration exceeded 1,200 percent of total risk-based capital. When
local real estate markets began to deteriorate in 2008, the combination of Mountain
National Bank’s aggressive lending strategy, excessive CRE concentrations, and lax
underwriting and credit administration practices caused asset quality to deteriorate.
Examples of the lax underwriting and credit administration practices included failing to
properly evaluate borrowers’ financial condition and repayment capacity, and renewing
CRE loans on an interest-only basis despite the decline in real estate sales and
valuations in the bank’s lending area. This led to excessive loan losses, high levels of
classified assets, erosion of capital through deficient earnings, and ultimately, the
bank’s failure.


Conclusion
Based on our review of the causes of Mountain National Bank’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were no
unusual circumstances surrounding the bank’s failure that would necessitate an in-depth
review. We provided a draft of this memorandum to OCC management for comment. In
its response, OCC stated it had no concerns with our determination that an in-depth
review of the bank’s failure is not warranted. The response is provided as
attachment 1. A list of the recipients of this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the audit. If
you have any questions, you may contact me at (202) 927-0384 or Theresa Cameron,
Audit Manager, at (202) 927-1011.

Attachments
         OIG-14-013

       Attachment 1
Management Response
                                                       OIG-14-013

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
